Nos. 19-351 and 18-1447

INTHE

~upreme Qtourt of tbe mlntteb ~tate!i
FEDERAL REPUBLIC OF GERMANY, ET AL.,

Petitioners,
V.

ALAN PHILIPP, ET AL.,

Respondents.
REPUBLIC OF HUNGARY, ET AL.,

Petitioners,
V.

ROSALIE SIMON, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Members of the United States House of Representatives as Amici
Curiae in Support of Respondents contains 5,900 words and complies with the word
limitation established by Rule 33.l(g)(xiv) of the Rules of this Court.
Dated: October 29, 2020

